February 2008
Report No. AUD-08-005


FDIC’s Consideration of Commercial
Real Estate Concentration Risk in
FDIC-Supervised Institutions




            AUDIT REPORT
Contents                                                      Page


BACKGROUND                                                       1
  Increase in CRE Loan Concentrations                            2
  Interagency Guidance                                           3
  DSC Guidance                                                   4

RESULTS OF AUDIT                                                 4

EXAMINATION PROCESS CONSIDERS INSTITUTION CRE                    5
RISK MANAGEMENT PRACTICES
  The PEP Memorandum                                             6
  ROE Information on CRE Concentrations                          6

OPPORTUNITIES FOR IMPROVING CRE CONCENTRATION                    6
REPORTING AND TRACKING
  DSC Guidance on the Concentrations Page                        7
  CRE Concentrations in the Summary Analysis of Examination      8
  Report (SAER)
  Recommendations for Improving CRE Concentration Reporting     10
  and Tracking

CORPORATION COMMENTS AND OIG EVALUATION                         10

APPENDICES
  1: OBJECTIVE, SCOPE, AND METHODOLOGY                          12
  2: RISK MANAGEMENT EXAMINATION PROCESS                        15
  3: CORPORATION COMMENTS                                       16
  4. MANAGEMENT RESPONSE TO RECOMMENDATIONS                     18

TABLES
  1: Percentage of FDIC-Supervised Institutions with CRE         2
     Loans/Total Capital Ratios >300%, by FDIC Region

  2: Number of FDIC-Supervised Institutions with CRE Loan        3
     Concentrations

  3: Concentrations Page and SAER for 48 Institutions           10
     with Potentially Significant CRE Concentrations
                                             Report No. AUD-08-005                                             February 2008

                                             FDIC’s Consideration of Commercial Real
     Federal Deposit Insurance Corporation
                                             Estate Concentration Risk in FDIC-Supervised
  Why We Did The Audit                       Institutions
  The audit objective was to assess the
  FDIC’s consideration of institution        Audit Results
  commercial real estate (CRE) risk
  management practices during its            The DSC examiners considered institution CRE risk management practices during
  examination of institutions with           FDIC examinations of institutions with potentially significant CRE concentration
  identified CRE concentration risk.         risks. In particular, DSC examination work products for these examinations,
                                             including Pre-Examination Planning Memoranda and Reports of Examination
                                             (ROE), provided evidence that the examiners had considered the identified CRE
  Background                                 concentration risks.

  The FDIC is the primary federal            We also determined that under FDIC guidance, examiner use of a Concentrations
  regulator for over 5,200 state-            page in the ROE for institutions that have potentially significant CRE and other
  chartered institutions. The FDIC’s         loan concentrations is optional, including for institutions with identified CRE
  Division of Supervision and                concentration risks. Examiner use of the Concentrations page for reporting
  Consumer Protection (DSC) conducts
                                             potentially significant CRE and other loan concentrations is an important control
  risk management examinations of
  FDIC-supervised financial                  for assuring that associated risk, if any, is considered by institution management
  institutions.                              and in the examination process. Further, the Summary Analysis of Examination
                                             Report (SAER), a tool DSC uses to ensure that the level of oversight accorded to
  Concentrations in CRE lending have         an institution is commensurate with the level of risk it poses to the Deposit
  been rising in FDIC-supervised             Insurance Fund, does not capture CRE concentrations as a separate category for
  institutions and have reached record       tracking purposes. A key purpose of the SAER is to collect data from the
  levels that could create safety and        examination for entry into the FDIC’s examination database. Including CRE
  soundness concerns at these                concentrations or adding a CRE concentrations line to the SAER would enable the
  institutions in the event of a             FDIC to effectively capture and highlight CRE concentrations information and
  significant economic downturn. CRE
                                             would provide a better means of updating the examination database.
  loans are land development and
  construction loans (including 1- to 4-
  family residential and commercial          The FDIC can increase DSC and institution management awareness of potentially
  construction loans) and other land         significant CRE concentration risk and the cumulative effect of CRE and other
  loans. The risk profile for a CRE          loan concentrations on the risk profile of the institution through enhancements in
  loan is sensitive to the condition of      the use of the Concentrations page and SAER.
  the general CRE market (for
  example, market demand, vacancy
  rates, or rents).
                                             Recommendations and Management Response
  In December 2006, the FDIC, in
  conjunction with the other federal         We recommend that the Director, DSC:
  banking agencies, issued joint
  guidance to financial institutions                 (1) Clarify guidance regarding the use of the Concentrations page in the
  entitled, Guidance on Concentrations               ROEs for institutions with potentially significant CRE loan concentrations.
  in Commercial Real Estate Lending,
  Sound Risk Management Practices, to                (2) Clarify the SAER instructions so that potentially significant CRE loan
  reinforce sound risk-management                    concentrations detected during the examination process are included, or
  practices regarding concentrations in              add a line item to the SAER specifically for CRE concentrations.
  CRE lending. DSC issued examiner
  guidance on CRE concentrations in
  the Risk Management Manual of
                                             DSC agreed with both recommendations and will clarify examiner guidance, by
  Examination Policies.                      September 30, 2008, as DSC reviews and updates its risk management program.




To view the full report, go to www.fdicig.gov/2008reports.asp
    Federal Deposit Insurance Corporation                                                            Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                             Office of Inspector General


    DATE:                                     February 7, 2008

    MEMORANDUM TO:                            Sandra L. Thompson, Director
                                              Division of Supervision and Consumer Protection


                                              /Signed/
    FROM:                                     Russell A. Rau
                                              Assistant Inspector General for Audits

    SUBJECT:                                  FDIC’s Consideration of Commercial Real Estate
                                              Concentration Risk in FDIC-Supervised Institutions
                                              (Report No. AUD-08-005)


    This report presents the results of our audit of the FDIC’s consideration of commercial
    real estate (CRE) concentration risk in FDIC-supervised institutions. CRE loans are land
    development and construction loans (including 1- to 4-family residential and commercial
    construction loans) and other land loans. 1 The risk profile for a CRE loan is sensitive to
    the condition of the general CRE market (for example, market demand, vacancy rates, or
    rents). The objective of this audit was to assess the FDIC’s consideration of institution
    CRE risk management practices during its examination of institutions with identified
    CRE concentration risk. We conducted this performance audit in accordance with
    generally accepted government auditing standards. Appendix 1 of this report discusses
    our audit objective, scope, and methodology in detail.


BACKGROUND

    The FDIC is the primary federal regulator for over 5,200 state-chartered institutions that
    are not members of the Federal Reserve System. Under section 10(d) of the Federal
    Deposit Insurance Act (FDI Act), all FDIC-insured institutions are required to undergo
    on-site risk management examinations every 12-18 months, depending on asset size and
    bank performance, to assess the safety and soundness of the financial institution and help
    promote stability and public confidence in the nation’s financial system. (Appendix 2
    discusses the risk management examination process.) The FDIC’s Division of
    Supervision and Consumer Protection (DSC) conducts risk management examinations of
    FDIC-supervised financial institutions.



    1
      CRE loans also include loans secured by multifamily property and nonfarm, nonresidential property
    where the primary source of repayment is derived from rental income associated with the property (that is,
    loans for which 50 percent or more of the source of repayment comes from third-party, nonaffiliated rental
    income) or the proceeds of the sale, refinancing, or permanent financing of the property.
Increase in CRE Loan Concentrations

      CRE concentrations have been rising in FDIC-supervised institutions and have reached
      record levels that could create safety and soundness concerns in the event of a significant
      economic downturn. To some extent, the level of CRE lending reflects changes in the
      demand for credit within certain geographic areas and the movement by many financial
      institutions to specialize in this lending sector that is perceived to offer enhanced earnings
      potential. In particular, small to mid-size institutions have shown the most significant
      increase in CRE concentrations over the last decade.

      DSC tracks FDIC-supervised financial institutions with potentially significant CRE
      concentration risk through its regional office management information groups or with the
      assistance of regional Division of Insurance and Research staff. DSC uses the ratio of
      CRE loans to total capital to identify individual institutions’ CRE concentrations, which
      could represent increased risk to the safety and soundness of an institution. Specifically,
      if this ratio exceeds 300 percent, the institution is at risk of having potentially significant
      CRE concentrations, and heightened examination attention may be warranted. Reports of
      Condition (Call Reports) data showing the growth in CRE concentrations among FDIC-
      supervised banks are provided in Table 1.

      Table 1: Percentage of FDIC-Supervised Institutions with CRE
      Loans/Total Capital Ratios >300%, by FDIC Region
      Region           June-      June-      June-      June-      June-      June-      June-
                        00         01         02         03         04         05         06
      San                42.0       46.8       51.8       54.1       55.2       60.0       59.8
      Francisco
      Atlanta             21.9       28.6       35.7       40.4       44.1       47.6       50.9
      Chicago             12.6       15.3       20.1       20.8       24.8       28.2       30.4
      New York            10.5       12.1       17.7       19.2       21.7       24.8       27.6
      Dallas              11.5       13.3       15.9       17.7       20.4       22.8       24.8
      Kansas City          7.4        8.1        8.8       10.2       12.2       14.7       17.1
      Source: The FDIC’s Supervisory Insights, Winter 2006, article entitled, Examiners Report
      on Commercial Real Estate Underwriting Practices.
      Note: Data from June 2000 through June 2006 Call Reports.



      Additionally, as of June 30, 2006, 1,626 institutions (31 percent) of the 5,240 FDIC-
      supervised institutions had CRE loan concentrations as detailed in Table 2 on the next
      page.




                                                          2
      Table 2: Number of FDIC-Supervised Institutions with CRE Loan Concentrations
              Region        Number of FDIC-        Institutions with a     Percentage
                               Supervised         CRE Concentration*
                               Institutions
      San Francisco                 460                    275                 59.8
      Atlanta                       741                    377                 50.9
      Chicago                     1,088                    331                 30.4
      New York                      594                    164                 27.6
      Dallas                        989                    245                 24.8
      Kansas City                 1,368                    234                 17.1
       Total                      5,240                   1,626                31.0
      Source: The FDIC’s Supervisory Insights, Winter 2006, article entitled, Examiners Report on Commercial
      Real Estate Underwriting Practices, and information obtained from DSC officials.
      *These numbers have been extrapolated based on the percentages shown in the Supervisory Insights article.
      Note: Data as of June 30, 2006.



Interagency Guidance

      In December 2006, the FDIC, in conjunction with the other banking agencies, 2 issued
      Guidance on Concentrations in Commercial Real Estate Lending, Sound Risk
      Management Practices (interagency guidance). This guidance was developed to
      reinforce sound risk-management practices regarding concentrations in CRE lending and
      acknowledges that the sophistication of an institution’s CRE risk management process
      should be appropriate to the size of the portfolio, as well as the level and nature of
      concentrations and the associated risk to the institution. The interagency guidance
      provides institutions a set of principles for heightening awareness of the following key
      elements in the risk assessment area:

            •    Board and management oversight
            •    Portfolio management
            •    Management information systems
            •    Market analysis
            •    Credit underwriting standards
            •    Portfolio stress testing and sensitivity analysis
            •    Credit risk review function

      Moreover, the guidance provides that an institution that (1) has experienced rapid growth
      in CRE lending, (2) has notable exposure to a specific type of CRE, or (3) is approaching
      or exceeds the following supervisory criteria may be identified for further supervisory
      analysis of the level and nature of its CRE concentration risk:

            •    total reported loans for construction, land development, and other land represent
                 100 percent or more of the institution’s total capital; or


      2
          Office of the Comptroller of the Currency and the Board of Governors of the Federal Reserve System.


                                                          3
         •    total CRE loans, as defined in the interagency guidance,3 represent 300 percent or
              more of the institution’s total capital, and the outstanding balance of the
              institution’s CRE loan portfolio has increased by 50 percent or more during the
              prior 36 months.

     Examiners use these criteria as a preliminary step in identifying institutions that may
     have CRE concentration risk.


DSC Guidance

     DSC’s Risk Management Manual of Examination Policies (Manual) contains a section on
     concentrations. The Manual states that if CRE concentrations are an issue, examiners
     should make note of them in either the Risk Management Assessment (RMA) or
     Examination Comments and Conclusion (ECC) sections of the Report of Examination
     (ROE). The Manual also contains a sample Concentrations page that examiners could
     use in the ROE to summarize information on CRE and other concentrations in the
     institution’s loan portfolio.

     Pre-examination planning generally takes place off-site at the field office, where the
     Examiner-in-Charge (EIC) completes an analysis and review of the institution, contacts
     the institution for financial records and other pertinent information, and develops an
     examination work plan. During this planning stage, the EIC decides on areas that need
     special attention and work that will be done first. The EIC prepares a Pre-Examination
     Planning (PEP) Memorandum to document initial conclusions relative to the perceived
     risk an institution poses and the examination procedures that will be used. According to
     the PEP Memorandum instructions, the examiner will comment on any targeted risk area
     that requires additional examination resources, briefly discuss loan penetration strategies,
     and summarize discussions with management. As such, it is expected that the EIC would
     comment in the PEP Memorandum on (1) the institution’s CRE loan concentrations,
     specifically if the interagency guidance criteria are met or exceeded; and (2) tests, if any,
     on risk management practices related to CRE concentrations.


RESULTS OF AUDIT

     DSC examiners considered institution CRE risk management practices during FDIC
     examinations for 29 of the 30 FDIC-supervised institutions we sampled with potentially
     significant CRE concentration risks. For example, all but 1 of the applicable PEP
     Memoranda for examinations of the 30 institutions discussed CRE concentrations.
     Further, either the RMA or ECC sections of the ROEs for 28 of the 30 sampled


     3
       The interagency guidance acknowledges that because regulatory reports capture a broad range of CRE
     loans with varying risk characteristics, the supervisory monitoring criteria do not constitute limits on an
     institution’s lending activity but rather serve as high-level indicators to identify institutions potentially
     exposed to CRE concentration risk.


                                                          4
    institutions provided evidence that the examiners had considered the identified CRE
    concentration risks.

    We also determined that under FDIC guidance, examiner use of a Concentrations page in
    the ROE for institutions that have potentially significant CRE and other loan
    concentrations is optional, including for institutions with identified CRE concentration
    risks. Examiner use of the Concentrations page for reporting potentially significant CRE
    and other loan concentrations is an important control for assuring that associated risk, if
    any, is considered by institution management and in the examination process. Further,
    the Summary Analysis of Examination Report (SAER), a tool DSC uses to ensure that
    the level of oversight accorded to an institution is commensurate with the level of risk it
    poses to the Deposit Insurance Fund, does not capture CRE concentrations as a separate
    category for tracking purposes. A key purpose of the SAER is to collect data from the
    examination for entry into the Virtual Information System on the Net (ViSION), the
    FDIC’s examination database. 4 Including CRE concentrations or adding a CRE
    concentrations line to the SAER would enable the FDIC to effectively capture and
    highlight CRE concentrations information and would provide a better means of recording
    CRE concentrations information into the examination database.

    The FDIC can increase DSC and institution management awareness of potentially
    significant CRE concentration risk and the cumulative effect of CRE and other loan
    concentrations on the risk profile of the institution through enhancements in the use of the
    Concentrations page and SAER.


EXAMINATION PROCESS CONSIDERS INSTITUTION CRE RISK MANAGEMENT
PRACTICES

    DSC examination work products, including the PEP Memoranda and ROEs for 29 of the
    30 institutions we sampled 5 showed that DSC is considering institution CRE risk
    management practices during examinations of institutions with potentially significant
    CRE loan concentrations. We focused on these two work products because they
    document the key elements in scoping an examination and reporting examination results,
    respectively. Examiners addressed CRE concentrations in various sections of the specific
    work products we reviewed.




    4
      ViSION provides automated support for many aspects of bank supervision, including safety and
    soundness examinations.
    5
      One examination did not address CRE concentrations because the examiner miscalculated the ratio of
    CRE loans to Tier 1 capital during the pre-examination phase. Therefore, it appeared that the institution
    did not meet the significant risk threshold, and the examiner decided not to conduct examination steps to
    determine if the institution was potentially exposed to CRE concentration risk.


                                                       5
The PEP Memorandum

      The purpose of the PEP Memorandum is to document examiners’ initial conclusions
      relative to the perceived risk an institution poses and the examination procedures that will
      be used. All but one of the PEP Memoranda we reviewed indicated that examiners
      generally were aware of CRE concentrations through Real Estate Stress Test 6 scores and
      other off-site planning tools. Additionally, the PEP Memoranda showed that examiners
      had planned for testing institution risk management practices related to CRE
      concentrations. The PEP memoranda we reviewed contained information such as annual
      changes in CRE loan-to-capital percentages, anticipated loan penetration ratios, plans to
      review CRE loan underwriting practices, and plans to review diversity within the CRE
      loan portfolio.


ROE Information on CRE Concentrations

      The purpose of the ROE is to factually present the institution’s condition, identify
      problems, provide management with suggestions and recommendations, and present
      examination ratings. The ROE also documents the basis upon which the institution’s
      composite rating was determined. We found that 28 of the 30 sampled ROEs contained
      evidence that the examiner had considered CRE concentration risk in the institutions in
      the course of risk management examinations. In most cases, the examiners considered
      key elements such as bank board and management oversight, loan portfolio management,
      or market analysis of CRE concentrations. For several of the examinations, examiners
      made specific recommendations to the institutions to implement certain risk management
      practices based on the interagency guidance. For the two remaining institutions sampled,
      we contacted the EICs to clarify the extent of the work performed on CRE
      concentrations. One EIC stated that she had reviewed CRE concentrations during the
      examination but did not identify any concerns. The other EIC did not cover CRE
      concentration risk during the examination as described earlier.


OPPORTUNITIES FOR IMPROVING CRE CONCENTRATION REPORTING
AND TRACKING

      Under current FDIC guidance, use of a Concentrations page 7 in the ROE for institutions
      that have potentially significant CRE loan concentrations is optional. Further, the SAER,
      which DSC uses to ensure that the level of oversight accorded to an institution is
      commensurate with the level of risk it poses to the Deposit Insurance Fund, does not
      capture CRE concentrations as a separate category for tracking purposes. Therefore, the
      FDIC can increase DSC and institution management awareness of potentially significant
      6
        The Real Estate Stress Test (REST) attempts to simulate what would happen to banks today if they
      encountered a real estate crisis similar to the early 1990s crisis in New England. REST uses statistical
      techniques and Call Report data to forecast an institution’s condition over a 3- to 5-year horizon and
      provides a single rating from 1 to 5 in descending order of performance quality.
      7
        The Concentrations page may include any type of concentration where a lack of diversification is cause
      for regulatory concern.


                                                        6
      CRE concentration risk and improve tracking of CRE concentrations for FDIC-
      supervised institutions, in particular, those with CRE concentrations greater than 300
      percent of total capital, through enhancements in the use of the Concentrations page and
      SAER.


DSC Guidance on the Concentrations Page

      For the examinations we sampled, the examiners did not always include a Concentrations
      page in the ROEs for institutions that had potentially significant CRE concentrations.
      Rather, the examiners most often addressed CRE concentration risks in either the ECC or
      RMA sections of the ROEs. The optional Concentrations page was not completed in 16
      of the 48 examinations we reviewed, 8 even though all of the institutions had been
      identified as having potentially significant CRE loan concentrations.

      The Risk Management Manual of Examination Policies contains a sample Concentrations
      page that an examiner could use to report a possible absence of risk diversification within
      the institution's asset structure. The Manual states that the Concentrations page:

              . . . is informational and all concentrations listed should not automatically be subject to criticism.
              However, if the intent is to criticize management's diversification policies, the examiner should
              carry forward comments to the RMA page or, if warranted, to the ECC page.

      The Manual does not require the examiner to include the Concentrations page in the
      ROE. Nevertheless, the Manual does state, “List any concentration in the 25 percent
      category if elevated risk is evident and/or it supports examination findings.” [Emphasis
      added.]

      Additionally, the concentration categories in the Manual’s sample Concentrations page
      are not specific to CRE lending. The Manual defines individual concentrations as those
      aggregating 25 percent or more of Tier 1 Capital and industry concentrations representing
      100 percent or more of Tier 1 Capital. The Manual also states:

              . . . in determining whether a group of related obligations comprises a concentration, remember
              concentrations by their nature are heavily dependent upon a key factor (for example, financial
              capability, management, source of revenue, industry, or collateral support). If a weakness
              develops in that factor, it could not only adversely affect the individual obligation(s) in the
              concentration, but it could also impact the institution's capital position.

      In contrast to the Manual guidance, the interagency guidance heightens the awareness of
      and risks associated with CRE loan concentration growth and exposure. Specifically,
      when total CRE loans, as defined in the guidance, approach or exceed 300 percent or
      more of the institution’s total capital and the outstanding balance of the institution’s CRE
      loan portfolio has increased 50 percent or more during the prior 36 months, the
      interagency guidance calls for further supervisory analysis of the level and nature of an

      8
        To collect additional data on examiners’ use of the Concentrations page, we expanded our sample from 30
      to 48 examinations. Our sampling methodology is discussed in Appendix 1.


                                                          7
      institution’s CRE concentration risk. DSC may want to consider a more robust control
      process that warrants the consistent use of the Concentrations page in the ROE.

      One FDIC regional office has already established such a control process. In January
      2005, the San Francisco Regional Office issued a memorandum entitled, Concentration
      of Credit in Commercial Real Estate Examination Methodologies and Best Practice,
      requiring examiners to use the Concentrations page in the ROE when institutions have a
      CRE concentration. According to this memorandum, “CRE-related concentrations can be
      segregated as a sector and reported as such on the Concentrations page in the ROE. One
      benefit of such an approach is that bank management will more easily be able to identify,
      measure, monitor, and report the existence and market-related information by these
      industry sector categories.”

      The other DSC regions do not have a similar requirement because the Manual states that
      using the Concentrations page in the ROE is not mandatory. When a Concentrations
      page was included in the ROE for some examinations that we sampled, some pages
      listed, for example, the institution’s controls for mitigating CRE concentration risk, while
      other Concentrations pages only recorded the concentration total and the amount as a
      percentage of Tier 1 Capital. For some of the other sampled examinations, additional
      information on the institution’s risk management practices for the CRE loan
      concentration was included in either the ECC or RMA sections of the ROE. We agree
      with the approach taken by the San Francisco Regional Office. Consistent examiner use
      of the Concentrations page for reporting potentially significant CRE and other loan
      concentrations is an important control for assuring that associated risk, if any, is
      considered by institution management and in the examination process.


CRE Concentrations in the Summary Analysis of Examination Report (SAER)

      The SAERs, which capture concentration information for supervisory purposes, were
      inaccurate or incomplete for 16 of the 48 institutions we sampled that had potentially
      significant CRE loan concentrations. Specifically, examiners did not effectively use two
      line items in the report--item 57, Number of Concentrations, and item 58, Concentration/
      Tier 1 Capital--to effectively identify CRE concentration risk in ViSION.

      The purpose of the SAER is to collect data from the examination for entry into ViSION,
      thereby providing an historical record of an institution and briefly summarizing
      examination findings. The case manager, who oversees the bank examination program,
      uses the SAER as a tool to ensure that the level of regulatory oversight accorded to an
      institution is commensurate with the level of risk it poses to the Deposit Insurance Fund.




                                                 8
Specifically, the SAER instructions 9 state that for line item 57, Number of
Concentrations, and line item 58, Concentration/Tier 1 Capital, the examiner is to
“obtain this number and ratio from the Concentrations page” of the ROE. The
instructions also state that:

        There must be an entry for each line item. In cases where no data is generated for a particular line
        item, a clear distinction between zero and NA (Not Available) is made. In those circumstances
        where the line item of information does not exist or is irrelevant to the institution, make the entry a
        zero…. When the line item of information is unavailable because the Report schedule is not
        included in the Report; make the entry an NA. When the line item of information is readily
        available but the related examination schedule is not included in the Report, the item of
        information may still be entered.

We initially sampled ROEs for 30 institutions with potentially significant CRE loan
concentrations and found that in 12 cases, the concentrations data for line items 57 and 58
of the SAER were either inaccurate or incomplete. Specifically, the EIC had recorded a
zero in those line items for all 12 institutions. According to the SAER instructions, this
means that concentration data either did not exist or were irrelevant. We expanded our
sample to include 18 additional ROEs and identified 4 more cases where the SAER
concentrations information was inaccurate. We also noted that the concentration line
items in the SAER relate to all concentrations identified during the examination and that
the current form of the SAER does not accommodate capturing CRE concentrations as a
separate identifiable category. As such, there is no specific place to highlight or track
CRE concentrations.

According to the SAER instructions, the examiner is to obtain the information for line
items 57 and 58 from the Concentrations page of the ROE. We found that in 16 of the 48
ROEs we sampled, the Concentrations page was not used. Additionally, in 12 of these
cases, concentrations information was not recorded correctly into the SAER. Further, in
4 of the 32 cases where a Concentrations page was in the ROE, the information was not
transferred to the SAER (see Table 3 on the next page).




9
 In April 2005, Regional Director’s Memorandum, Transmittal No. 2005-011, DSC Risk Management
Manual of Examination Policies, no longer required that the SAER be a page in the ROE. However,
examiners use the General Examination System (GENESYS), which automates the preparation of the ROE.
GENESYS generates SAER information and uploads the SAER data directly to ViSION at the conclusion
of each examination.


                                                   9
      Table 3: Concentrations Page and SAER for 48 Institutions
      with Potentially Significant CRE Concentrations
         Concentrations Page                   Entries on the SAER
             in the ROE
                                        Line Item 57        Line Item 58
           Yes              32          Yes      28         Yes       27
                                        No        4         Yes        5
        Subtotal                                 32                   32

           No               16          Yes        4        Yes         4
                                        No        12        No         12
        Subtotal                                  16                   16
         Total              48                    48                   48
      Source: OIG analysis of Concentrations page and SAER entries for our sample.



      A key purpose of the SAER is to collect data from the examination for entry into the
      examination database. Including CRE concentrations or adding a CRE concentrations
      line to the SAER would enable the FDIC to effectively capture and highlight CRE
      concentration information and would provide a better means of recording CRE
      concentrations information into ViSION, the examination database. Accordingly, the
      FDIC can increase DSC and institution management awareness of potentially significant
      CRE concentration risk and the cumulative effect of CRE and other loan concentrations
      on the risk profile of the institution through enhancements in the use of the
      Concentrations page and SAER.


Recommendations for Improving CRE Concentration Reporting and Tracking

      We recommend that the Director, DSC:

      (1) Clarify guidance regarding the use of the Concentrations page in the ROEs for
      institutions with potentially significant CRE loan concentrations.

      (2) Clarify the SAER instructions so that potentially significant CRE loan concentrations
      detected during the examination process are included, or add a line item to the SAER
      specifically for CRE concentrations.


CORPORATION COMMENTS AND OIG EVALUATION

      On January 30, 2008, the Director, DSC, provided a written response to a draft of this
      report. DSC agreed with both recommendations and will clarify examiner guidance, by
      September 30, 2008, as DSC reviews and updates its risk management examination
      program. DSC’s response is presented in its entirety as Appendix 3 of this report.



                                                       10
DSC’s actions are responsive to our recommendations. A summary of management’s
response to the recommendations is in Appendix 4. The recommendations are resolved
but will remain open until we have determined that agreed-to corrective actions have
been completed and are effective.




                                        11
                                                                                   APPENDIX 1
                         OBJECTIVE, SCOPE, AND METHODOLOGY


Objective

      The objective of this audit was to assess the FDIC’s consideration of institution CRE risk
      management practices during its examination of institutions with identified CRE
      concentration risk. We conducted this performance audit from August through
      November 2007 in accordance with generally accepted government auditing standards.
      Those standards require that we plan and perform the audit to obtain sufficient and
      appropriate evidence to provide a reasonable basis for our findings and conclusions based
      on our audit objectives. We believe that the evidence obtained provides a reasonable
      basis for our findings and conclusions based on our audit objective.


Scope, Methodology, and Internal Controls

      To obtain an understanding of the information FDIC examiners collect and
      analyze for risk management examinations, we reviewed relevant FDIC and DSC policies
      and guidelines, including:

            •   DSC’s Risk Management Manual of Examination Policies;
            •   Regional Directors Memorandum 2003-059, Commercial Real Estate Review
                Package;
            •   Regional Directors Memorandum 2006-038, Concentrations in Commercial Real
                Estate Lending, Sound Risk Management Practices; and
            •   Regional Directors Memorandum 2007-013, Frequently Asked Questions for
                CRE Concentration Guidance.

       We performed our initial work in DSC’s Dallas Field Office, where we reviewed
       pertinent DSC examination reports and supporting work papers for three financial
       institutions with potentially significant CRE loan concentrations. Also, we interviewed
       the Dallas Field Office Supervisor, a senior examiner, and an EIC, all of whom had
       responsibility for reviewing and approving examiners’ work papers and finalizing ROEs.

      We discussed the interagency guidance, Concentrations in Commercial Real Estate
      Lending, Sound Risk Management Practices, with DSC management officials and OIG
      legal counsel. We also discussed the results of our Dallas Field Office work concerning
      institution CRE lending practices with DSC management. We then focused our
      subsequent audit work on reviewing key DSC internal examination controls that address
      bank CRE lending practices. Specifically, we reviewed examiner use of the PEP
      Memorandum, in which the EIC would be expected to comment on the institution’s CRE
      concentration risks before beginning the actual on-site examination, and the subsequent
      FDIC ROE. In addition, for two examinations in our sample, we contacted EICs to either
      clarify or expound on the information we deemed necessary to conclude on our objective.

       We obtained from DSC a nationwide listing of 413 FDIC-supervised institutions that
       met the criteria for having a potentially significant exposure to CRE concentration risk as


                                                 12
                                                                                                APPENDIX 1


       well as a completed risk management examination between January 1, 2007 and
       August 31, 2007. We used sampling software 10 to obtain a random sample of 60
       institutions. Based on discussions with OIG management, we chose an initial sample
       size of 30 institutions to review. We selected the 30 institutions from the random listing,
       in order of generation, eliminating only those institutions for which the state supervisor
       had conducted the examination and those for which DSC could not yet provide the
       finalized report. After determining that there were inconsistencies in the use of the
       Concentrations page and inaccuracies with the SAER concentrations data, we expanded
       our sample within the universe of 60 institutions and selected 18 additional institutions to
       review. Hence, our expanded review of Concentrations page and SAER data involved a
       sample size of 48 ROEs.

      We performed our audit work at the FDIC’s Headquarters offices in Washington, D.C.,
      and the Dallas Regional and Field Offices in Dallas, Texas.


Reliance on Computer-processed Information

      For purposes of the audit, we did not rely on computer-processed information to support
      our findings, conclusions, or recommendations. Our assessment centered on reviews of
      PEP Memoranda and ROEs. We determined that information system controls were not
      significant to our audit objectives. Accordingly, we did not consider it necessary to
      develop procedures to assess those controls.


Prior Audit Coverage

      In January 2003, the OIG previously reported on examiners’ assessments of CRE loans. 11
      The OIG determined that examiners could have better assessed appraised value and cash
      flow for the examinations we reviewed. Specifically, examiners were not consistently
      (1) using the lesser of the acquisition cost or appraised value to compute the loan-to-value
      (LTV) ratios, (2) using new financial information to update old appraisal assumptions,
      and (3) documenting the results of their review of appraisals. Incorrect computation of
      the LTV ratio and reliance on outdated financial information can cause potential losses to
      the institution to go undetected. Because the examiners’ documentation of performed
      procedures varied significantly for each loan, it was often difficult to ascertain the
      supporting logic for examiner conclusions.

      Also, for some of the loans we reviewed, there was no evidence on the examiners’ loan
      line sheets that a cash flow analysis had been performed. We also observed many cases
      where banks did not obtain current financial statements from borrowers. Omission of the
      cash flow analysis or the use of outdated financial statements in the assessment of cash
      flow may leave the examiner with insufficient or misleading information for classifying
      the loan.

      10
           Audit Command Language (ACL) is a data extraction and analysis product used in the audit profession.
      11
           OIG Audit Report No. 03-008 entitled, Examiner Assessment of Commercial Real Estate Loans.


                                                         13
                                                                                              APPENDIX 1


      Additionally, in December 2002, the OIG reported on examiners’ assessments of high-
      loan growth institutions. 12 For the 15 safety and soundness examinations that we
      reviewed, DSC examiners’ loan review process for institutions that had experienced a
      significant level of loan growth was not sufficient in identifying risk. Specifically,
      examiners were not always (1) targeting new loans for sampling purposes and reporting
      on the level of new loans reviewed, (2) assessing or commenting on the loan quality of
      newly originated loans, and (3) assessing the internal loan risk rating process at
      institutions based on a methodology that incorporates a review of non-adversely
      classified loans. As a result, there was insufficient assurance that examiners were
      consistently performing a comprehensive review and analysis of newly originated loans
      in high loan-growth institutions.


Compliance with Laws and Regulations

      The FDIC Rules and Regulations, Part 365, Real Estate Lending Standards, Appendix A,
      prescribe standards for real estate lending to be used by insured state nonmember
      institutions in adopting internal real estate lending policies. The regulations state that
      each insured state nonmember bank shall adopt and maintain written policies that
      establish appropriate limits and standards for extensions of credit that are secured by liens
      on, or interests in, real estate. In addressing our audit objective, we did not specifically
      test for compliance with Part 365; however, no specific violations came to our attention
      besides those violations reported in the ROEs.


Government Performance and Results Act and Fraud and Illegal Acts

      The Government Performance and Results Act of 1993 directs Executive Branch
      agencies to develop a strategic plan that sets performance goals and objectives for agency
      management. In fulfilling its primary supervisory responsibilities, the FDIC pursues two
      strategic goals: (1) FDIC-supervised institutions are safe and sound, and (2) consumers’
      rights are protected and FDIC-supervised institutions invest in their communities.
      Moreover, there is one strategic objective related to our audit: FDIC-supervised
      institutions appropriately manage risk.

      In its 2007 Annual Performance Plan, the FDIC has a strategic goal to ensure FDIC-
      supervised institutions are safe and sound and a strategic objective that FDIC-supervised
      institutions appropriately manage risk. To accomplish that objective, the FDIC has an
      annual performance goal to conduct on-site risk management examinations to assess the
      overall financial condition, management practices and policies, and compliance with
      applicable laws and regulations of FDIC-supervised institutions.

      We did not perform specific audit tests for fraud or illegal acts as part of this assignment.
      However, throughout the audit, we were sensitive to the potential for fraud and illegal
      acts, and no indications of fraud or illegal acts came to our attention during the audit.
      12
           OIG Audit Report No. 03-009 entitled, Examiner Assessment of High-Loan Growth Institutions.


                                                        14
                                                                               APPENDIX 2
                 RISK MANAGEMENT EXAMINATION PROCESS



The purpose of conducting risk management examinations is to assess an institution’s
overall financial condition, review management practices and policies, monitor adherence
with banking laws and regulations, review internal control systems, identify risks, and
uncover fraud or insider abuse. This examination process is articulated in DSC’s Risk
Management Manual of Examination Policies. The overall outcome is the
CAMELS/Composite rating for a particular financial institution. The components of the
CAMELS rating are Capital, Asset quality, Management, Earnings, Liquidity, and
Sensitivity to market risk. There are individual component ratings and a composite score
(which is not an arithmetic average) that denotes overall condition and is used, in part, to
determine deposit insurance premiums. The CAMELS rating system is used by
regulators to assess soundness of individual institutions, to identify institutions requiring
special supervisory attention, and to monitor industry trends. The CAMELS rating drives
the examination procedures.

The FDIC’s risk management safety and soundness examinations consist of three parts:
pre-examination planning, on-site examination, and completion of the ROE. Pre-
examination planning generally takes place off-site at the field office, where the EIC
completes an analysis and review of the institution, contacts the institution for financial
records, and develops an examination work plan. During this stage, the EIC decides on
areas that need special attention and on the work that will be done first. The EIC
prepares a PEP Memorandum to document the initial conclusions relative to the
perceived risk an institution poses and the examination procedures that will be used.
Examination instructions tell the examiner to summarize significant discussion topics,
such as risk areas, management’s concerns regarding economic conditions, and any other
data meaningful to the examiner’s efforts to allocate examination resources. Also, the
PEP Memorandum should mention targeted risk areas, specifying areas with more than
normal risk to which the examiner intends to devote additional or “above-normal”
examination resources; and the proposed loan scope, with emphasis on risk areas within
the portfolio where loan file review will be concentrated.

Once on-site at the institution, the examiners concentrate on the institution’s asset quality,
financial condition, and operations. The examination team also evaluates the institution’s
adherence to banking laws and regulations, the adequacy of the institution’s internal
controls and procedures, and the capability of management reporting systems to provide
reliable and accurate data.

Finally, the ROE factually presents the institution’s condition, identifies problems,
provides management with suggestions and recommendations, and discloses the
examination ratings. The ROE, in other words, documents the results of the examination
and the basis on which the composite rating was determined. This report is a confidential
document shared only with the institution’s senior management and board of directors,
and its contents can be disclosed only with the FDIC’s authorization.




                                           15
     APPENDIX 3




17
                                                      APPENDIX 4
                 MANAGEMENT RESPONSE TO RECOMMENDATIONS


This table presents the management response on the recommendations in our report and
the status of the recommendations as of the date of report issuance.


    Rec. No.     Corrective Action: Taken          Expected        Monetary      Resolved:a     Open or
                        or Planned                Completion       Benefits      Yes or No      Closedb
                                                     Date
        1        DSC will clarify its            September 30,         $0        Yes           Open
                 examiner guidance               2008
                 regarding the use of the
                 Concentrations page in the
                 ROE for institutions with
                 potentially significant CRE
                 loan concentrations.

        2        DSC will clarify the SAER       September 30,         $0        Yes           Open
                 instructions so that            2008
                 potentially significant CRE
                 loan concentrations
                 detected during the
                 examination process are
                 included or will add a line
                 item to the SAER
                 specifically for CRE
                 concentrations.


a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is
                   consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is
                   acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0)
                   amount. Monetary benefits are considered resolved as long as management provides
                   an amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are effective,
the recommendation can be closed.




                                                  18
